                                                                        Office ofInspector General
                                                                        Emergency Management Oversight

                                                                        U;S. Department of Homeland Security
                                                                        300 Frank H. Ogawa Plaza, Ste. 275
                                                                        Oakland, California 94612


                                                                       Homeland
                                                                       Security
                                           March 28, 2008


MEMORANDUM FOR:               Nancy Ward
                              Regional Administrator
                              FEMA Region IX

                              R            ,/-/!.·lJt~~co
FROM:                         Robert J. s~~
                              Director
                              Western Regional Office

SUBJECT:                      FEMA 's Management ofthe Public Assistance Program for
                              Two California Disasters
                              Report Number DS-08-03

In response to correspondence we received from an official with the California Governor's Office of
Emergency Services (OES), we audited the'Federal Emergency Management Agency's (FEMA's)
management of the Public Assistance (PA) program for two federally-declared California disasters
(1577-DR-CA and 1585-DR-CA). The official claimed that FEMA's disaster response and recovery
efforts for these disasters were not effective because FEMA did not include grantee or subgrantee
officials in decision-making regarding project eligibility and cost. In subsequent correspondence to
our office, the OES Deputy Director said the statements made by the OES official did not represent
the official position of OES. As part of our ongoing responsibility to independently review DHS
operations, we continued our audit to assess FEMA's management ofthe PA program during those
disasters.

We performed the audit under the authority of the Inspector General Act of 1978, as amended, and
according to Government Auditing Standards issued by the Comptroller General of the United
States. The audit included a review ofFEMA and OES records, discussions with FEMA
Headquarters and Region IX officials, and meetings with OES and local officials, and other auditing
procedures considered necessary under the circumstances.

FEMA generally complied with PA program requirements. Although some subgrantees with large
federal disaster awards were critical ofFEMA's practices for implementing certain aspects of the PA
program, collectively, we did not find any matelial indicators of poor FEMA performance. While
we identified opportunities for FEMA to: (1) improve the control and maintenance of records
collected during site inspections, (2) improve the review and resolution of appeals, and (3) avoid
potential conflicts of interest, your staff informed us and provided us additional documentation that
corrective action has been taken. Since the audit did not identify issues requiring further action from
FEMA, we consider this audit closed.
The cooperation and courtesies extended to us by you and your staff are greatly appreciated. Should
you have any questions concerning this report, please contact me at 510-637-1461. Key contributors
to this review were Humberto Melara, Trudi Powell, and Jeff Flynn.


Cc:    DHS GAO/OIG Liaison
       FEMA Audit Liaison (Job Code P06G-E077)




                                                2
